Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL



      Common Working File Edits for
      Unauthorized Laboratory Tests




                    JANET REHNQUIST
                   Inspector General

                      JANUARY 2002
                     OEI-O5-00-00050
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG) mandated by Public Law 95-452, as
amended by Public Law 100-504, is to protect the integrity of the Department of Health and
Human Services programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary of program
and management problems and recommends legislative, regulatory, and operational approaches to
correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

The Office of Evaluation and Inspections’ Chicago regional office prepared this report under the
direction of William C. Moran, Regional Inspector General and Natalie Coen, Deputy Regional
Inspector General. Principal OEI staff included:

Region                                                             Headquarters

John Traczyk, Team Leader                               Bambi Straw, Program Specialist

Thomas Komaniecki, Analyst

Susan Otter, Analyst 





       To obtain copies of this report, please call the Chicago Regional Office at (312) 353-4124.
             Reports are also available on the World Wide Web at our home page address:

                                         http://oig.hhs.gov/oei/
                       EXECUTIVE SUMMARY


PURPOSE

        To determine whether laboratory payment safeguards have been effective in protecting
        Medicare program funds.


BACKGROUND

        This report focuses on how well the Common Working File (CWF) edits work when
        processing claims from laboratories holding a CLIA Certificate of Waiver or Certificate
        for Provider Performed Microscopy Procedures. The CWF scrutinizes claims to ensure
        that the laboratory services billed are authorized under a provider’s CLIA certificate. We
        did not analyze claims submitted by laboratories certified by CLIA to do moderate or high
        complexity laboratory testing. These laboratories hold CLIA Certificates of Compliance
        or Accreditation and the services they bill to Medicare are not yet subject to CWF edits.


FINDINGS

Claim Processing Edits Appear Effective at Detecting And Denying
Payment For Services Not Authorized by a Laboratory’s CLIA
Certificate of Waiver or Certificate For Provider Performed Microscopy
Procedures

        Only 98 of the 26,456 laboratories (less than 1 percent) in our sample managed to elude
        CMS’s Common Working File claims processing edits and were paid for services not
        authorized by their CLIA certificate. Based on our sample, it appears that CMS’s
        Common Working File edits were effective and resulted in the correct processing (denial
        or payment) of nearly all (998 of every 1,000) services billed by 26,456 laboratories
        holding a Certificate of Waiver or a Certificate for Provider Performed Microscopy
        Procedures.

        Based on our sample, we estimate that, in 1999, about 16,000 laboratory services (out of
        an estimated 8.1 million services submitted) went undetected by CWF edits. We also
        estimate that these claims accounted for less than $76,000 of the estimated $31.3 million
        paid for services submitted by laboratories holding a Certificate of Waiver or a Certificate
        for Provider Performed Microscopy Procedures.




CWF Laboratory Edits                              i                                    OEI-05-00-00050
However, Certain CMS Survey and Certification Policies, in Effect in
1999, Appear to Adversely Affect Common Working File Payment
Safeguards

        CMS Policy: Permits laboratories that obtain a CLIA Certificate of Registration to bill
        Medicare before they have been surveyed.

        Fifty laboratories in our sample were holding a CLIA Certificate of Registration when
        Medicare paid them for laboratory services in 1999. These 50 laboratories gained access
        to Medicare and Medicaid payment systems simply by submitting a CLIA application to
        CMS indicating that they would be doing moderate or high complexity laboratory tests.
        Based on unverified application information, they were given a CLIA Certificate of
        Registration and a CLIA number for use in billing Medicare and Medicaid.

        The CMS policy allowed these 50 laboratories to operate without a visit from CLIA
        surveyors for up to 24 months. During this period, they were allowed to receive payments
        from Medicare even though they had not paid all of their CLIA fees. Most of these
        laboratories billed Medicare for less than $1,000 in 1999 and several were paid $10,000 or
        more. One laboratory was paid nearly $200,000. The CWF processed these claims
        correctly; however, we question a policy that permits unrestricted access to the Medicare
        payment system before laboratories have paid their survey and certification fees and been
        inspected. The CMS is aware of this problem and is considering a change in procedure.

        CMS Policy: Prohibits the downgrading of a CLIA certificate until the current
        certificate has expired.

        Analysis of our 5 percent file revealed that 1,104 laboratories had downgraded their CLIA
        certification sometime during 1999. Medicare paid for more than 13,600 moderate and
        high complexity services billed by these laboratories in our sample. These services may
        not have been paid had the CWF received updated information that the laboratory had
        downgraded its CLIA certification.

        When these providers submitted their claims for payment, it was CMS policy not to
        downgrade CLIA certificate information until the existing CLIA certificate had expired.
        Some of the paid services may have been denied if updated CLIA certification information
        had been relayed in a more timely manner to the CWF. The CMS is considering a policy
        change that would result in more timely updates of laboratory certification information.
        Based on our sample, a change in procedure could affect the processing of an estimated
        275,000 laboratory services.




CWF Laboratory Edits                            ii                                  OEI-05-00-00050
RECOMMENDATIONS

        It appears that CMS’s Common Working File has been effective in ensuring that
        laboratories holding CLIA Certificates of Waiver and Certificates for Provider Performed
        Microscopy Procedures are paid correctly. Based on the vulnerabilities identified in this
        report, we encourage CMS to exam and revise its operating procedures to:

        <	       Shorten the length of time allowed between application and onsite survey of new
                 laboratories.

        <	       Prohibit laboratories from billing Medicare until they have paid all of their CLIA
                 fees or been surveyed to ensure compliance with CLIA regulations.

        <	       Downgrade CLIA certificates and transmit the information to the CWF as soon as
                 it becomes known that a laboratory will no longer do moderate or high complexity
                 testing.


AGENCY COMMENTS

        We received comments on this report from CMS. They concur with our all of our
        recommendations and have made changes to their procedures that will help meliorate the
        common working file edit system by addressing the vulnerabilities identified in this report.
        Their comments can be found in Appendix A.




CWF Laboratory Edits                              iii                                   OEI-05-00-00050
                            TABLE OF CONTENTS



                                                                                                                           PAGE

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS


          Laboratory processing edits appear effective . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


          Survey and certification policy vulnerabilities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


APPENDIX A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10





CWF Laboratory Edits                                                                                              OEI-05-00-00050
                                  INTRODUCTION


PURPOSE

         To determine whether laboratory payment safeguards have been effective in protecting
         Medicare program funds.


BACKGROUND

The Centers for Medicare & Medicaid Services

         The Centers for Medicare & Medicaid Services (CMS) administers Medicare, the nation's
         largest health insurance program, which covers approximately 39 million Americans.
         Medicare provides health insurance to people age 65 and over, and to those who have
         permanent kidney failure and to certain people with disabilities. The CMS also works
         with the States to provide health insurance to another 35 million Americans enrolled in
         Medicaid and the State Children's Health Insurance Program.

Clinical Laboratory Improvement Amendments of 1988

         In addition to providing health insurance, CMS also performs many quality-focused
         activities, including regulation of clinical laboratory testing. In 1988, Congress enacted
         the Clinical Laboratory Improvement Amendments (CLIA). The CLIA established
         “quality standards for all laboratory testing to ensure the accuracy, reliability and
         timeliness of patient test results regardless of where the test was performed.”

         Under current law, all laboratories must be certified under CLIA to perform testing on
         human specimens.1 Laboratories enroll in the program by completing an application and
         paying a certificate fee to CMS. Fees are based on certificate type, annual volume and
         number of test specialities.

         Each laboratory must have a certificate appropriate for the complexity of the testing they
         conduct. All laboratory test methods are classified based on testing complexity into one of
         four categories: high, moderate, provider-performed microscopy or waived test

         1
           The CLIA regulations define a laboratory as a facility for the . . . examination of materials derived from
the human body for the purpose of providing information for the diagnosis, prevention or treatment of any disease
or impairment of, or the assessment of the health of, human beings. These examinations also include procedures to
determine, measure, or otherwise describe the presence or absence of various substances or organisms in the body.
The regulations allow for some exceptions, including forensic laboratories, research laboratories that “do not report
patient-specific results,” drug testing laboratories certified by the Substance Abuse and Mental Health Services
Administration, and some Federal laboratories.


CWF Laboratory Edits                                     1                                          OEI-05-00-00050
        methods. The type of CLIA certificate a laboratory receives relates to the complexity of
        testing conducted at that laboratory’s site. All laboratories are required to keep CMS
        informed of major changes in testing, ownership or directorship.

        Of the nearly 170,000 laboratory2 sites certified by CLIA as of July 2000, about 86,500
        sites have been issued a Certificate of Waiver. Approximately 36,000 physicians and other
        approved providers hold Certificates for Provider Performed Microscopy Procedures.
        These laboratories are permitted to perform specific moderate-complexity microscopy
        procedures and waived tests. The remaining 41,500 laboratories conduct moderate or
        high complexity testing.

        A CLIA surveyor must inspect laboratories that conduct moderate or high complexity
        testing before they can receive CLIA certification. These onsite inspections occur after
        the laboratory has paid its CLIA fees. The CMS allows laboratories up to 24 months from
        the date of their application to pay CLIA certification fees. In the interim, laboratories are
        issued a Certificate of Registration and a CLIA number that allows them to conduct
        testing and bill Medicare and Medicaid until CMS inspects them. Once the laboratory has
        proven to surveyors that it meets all CLIA requirements, it is issued a Certificate of
        Compliance or a Certificate of Accreditation. The certificates expire 24 months after
        issue. All laboratories must renew their CLIA certificate every 24 months.

Medicare Payment

        Medicare and Medicaid require CLIA certification as a condition of payment. Medicare
        has two parts: Hospital Insurance (Part A) and Supplemental Medical Insurance (Part B).

        <	
        <        Medicare Part A: Provides coverage of inpatient hospital services, skilled
                 nursing facilities, home health services and hospice care. These providers are
                 required to ensure that the laboratory services furnished to the patients in their care
                 are performed by CLIA certified laboratories. Reimbursement for these laboratory
                 services is included in Medicare’s payment to these providers.

        <	       Medicare Part B: Helps pay for the cost of physician services, outpatient hospital
                 services, laboratory services, medical equipment and other health care services and
                 supplies. Providers of these services submit itemized bills for the services they
                 provide to Medicare for payment.

        Medicare carriers and intermediaries process claims for payment of laboratory services.
        These fiscal agents ensure that all claims submitted for payment are accurate and
        complete. Incomplete claims and claims that fail computer system accuracy checks (called
        edits) are rejected. Claims not rejected by the fiscal agents’ payment safeguards are
        prepared for payment using the Clinical Laboratory Fee Schedule. The Clinical


        2
           This includes about 5,800 laboratories in New York and Washington which are exempt States. These
States meet CMS requirements to survey and certify laboratories under their State program. The States must pay a
fee and show CMS that the State program meets or exceeds the requirements for laboratories under CLIA.


CWF Laboratory Edits                                   2                                         OEI-05-00-00050
        Laboratory Fee Schedule determines the amount Medicare will pay for each laboratory
        service billed to the program.

Payment Safeguards: Claims Processing and Common Working File Edits

        Laboratory claims submitted to Medicare for payment undergo scrutiny by the fiscal agent
        that received the claim and by the Common Working File maintained by CMS. When
        intermediaries and carriers receive a claim for payment of clinical laboratory services they
        process the claim using the information submitted by the provider and information
        contained in their files. When they have finished processing the claim to the point of
        payment or denial, they submit the claim to the Common Working File (CWF). The CWF
        uses its programs and files to decide whether to accept and pay the claim as submitted or
        reject the claim and deny payment.

        The CWF scrutinizes claims for reimbursement of clinical laboratory services to ensure
        that the provider submitting the claim was certified by CLIA when the service was
        provided to the patient. If the claim is from a laboratory provider holding a CLIA
        Certificate of Waiver or Certificate for Provider-Performed Microscopy, the CWF also
        checks to make sure that the laboratory services billed are authorized under that
        provider’s CLIA certificate. Laboratory services not authorized under the provider’s
        CLIA certificate are denied payment.

        Information about a laboratory’s CLIA survey and certification is periodically transmitted
        to the CWF from CMS’s Online Survey, Certification and Reporting (OSCAR) system.
        The OSCAR system relies on laboratory surveyors to update survey and certification
        information when it becomes known. This updated information is then relayed to the
        CWF.


METHODOLOGY

        We used a claim sample containing all of the claims submitted for 5 percent of Medicare
        beneficiaries in calendar year 1999. Using this 5 percent sample, we created a file
        containing all of the laboratory services submitted to Medicare for these patients. We
        sorted this file on the CLIA laboratory number of the provider.

        In April 2000, we obtained data about CLIA certified laboratories from the CLIA Online
        Survey, Certification and Reporting (OSCAR) system. We used this data to create three
        other files. One file contained information about laboratories having a CLIA Certificate of
        Waiver. The second contained information about laboratories holding Certificates for
        Provider Performed Microscopy Procedures. The third contained information about
        laboratories certified by CLIA to do moderate or high complexity laboratory testing. We
        sorted these files on the CLIA laboratory number to facilitate the matching of claim
        information with CLIA survey and certification information.




CWF Laboratory Edits                             3                                    OEI-05-00-00050
        Using information from CMS’s web site, we created an Access database containing all of
        the waived procedure codes. A second Access database was created that contained all of
        the procedure codes for provider-performed microscopy. The provider-performed
        microscopy file also contained all of the waived laboratory procedure codes.

        For our first data run, we used information from the April 2000 CLIA survey and
        certification file containing information about waived laboratories. We merged this
        information with the 5 percent sample file containing 1999 claim information. We created
        a program that enabled us to identify and isolate all of the laboratory services billed to
        Medicare by the laboratories holding a CLIA Certificate of Waiver. Using our Access
        database, we identified authorized and unauthorized services billed to Medicare by
        laboratories holding a CLIA Certificate of Waiver. We also used our program to
        determine whether CMS paid or denied these services. This process was repeated for the
        analysis of the services submitted by laboratories holding Provider Performed Microscopy
        Certificates.

        Our sample selection method prevents us from projecting our findings to the universe of
        laboratories. We selected our laboratories and services from a 5 percent beneficiary file.
        Consequently, projections as to the number of laboratories affected in the universe would
        not be reliable. Our sample methodology does enable us to make projections about
        services and payments.

        We derived some information in this report from discussions that we had with CMS and
        State agency CLIA surveyors. These discussions were held during the winter of
        2000/2001 as part of the inspections entitled: CLIA Regulation of Unestablished
        Laboratory Tests, (OEI-05-00-00250) and Enrollment and Certification Processes in the
        Clinical Laboratory Improvement Amendments Program (OEI-05-00-00251).

        We conducted our review in accordance with the Quality Standards for Inspections issued
        by the President’s Council on Integrity and Efficiency.




CWF Laboratory Edits                             4                                   OEI-05-00-00050
                                     FINDINGS


Claim processing edits appear effective at detecting and
denying payment for services not authorized by a
laboratory’s CLIA Certificate of Waiver or Certificate For
Provider Performed Microscopy Procedures
        The CMS has done a good job in developing and implementing claims processing edits for
        waived and provider-performed microscopy laboratory services. The common working
        file edits they have developed appear effective in identifying:

        <        laboratories that attempt to bill Medicare without proper CLIA certification, and

        <	       nearly all laboratory services billed to Medicare but not authorized under a
                 provider’s CLIA certificate.

        Overall, less than 1 percent of the laboratories in our sample managed to elude CMS’s
        Common Working File claims processing edits and were paid for services not authorized
        by their CLIA certificate. Based on our sample, it appears that CMS’s Common Working
        File edits were effective and resulted in the correct processing (denial or payment) of
        nearly all (998 of every 1,000) services billed by laboratories holding a Certificate of
        Waiver or a Certificate for Provider Performed Microscopy Procedures.

        Our 5 percent sample of claims submitted in 1999 shows that Medicare allowed just over
        $1.5 million in payments to laboratories holding a Certificate of Waiver or a Certificate for
        Provider Performed Microscopy Procedures. Of this amount, less than 1 percent appears
        to have been paid incorrectly due to some Common Working File edit failure. Of the
        nearly 26,000 laboratories in our sample, fewer than 100 by-passed CWF edits and were
        paid incorrectly. Most of these laboratories were paid for services not covered by their
        CLIA certificate when they used a procedure code modifier with a laboratory service
        procedure code.

        Based on our sample, we estimate that, in 1999, about 16,000 laboratory services (out of
        an estimated 8.1 million services submitted) went undetected by CWF edits. We also
        estimate that these claims accounted for less than $76,000 of the estimated $31.3 million
        paid for services submitted by laboratories holding a Certificate of Waiver or a Certificate
        for Provider Performed Microscopy Procedures.




CWF Laboratory Edits                               5                                    OEI-05-00-00050
However, Certain CMS survey and certification policies, in
effect in 1999, appear to adversely affect common working
file payment safeguards
        The CWF functioned correctly and CMS correctly paid claims under the policies that
        existed in 1999. However, the payment decisions made by CMS’s Common Working File
        system may have been affected by CLIA survey and certification information used by the
        CWF system. Two CMS survey and certification policies (in effect during 1999) may
        have affected the way CWF edits handled payment decisions on claims submitted by 1,154
        laboratories in our sample.

        Policy 1: Permits laboratories that obtain a CLIA Certificate of Registration
        to bill Medicare before they have been surveyed

        Permitting laboratories that obtain a CLIA Certificate of Registration to bill Medicare
        before they have been surveyed may be a vulnerability because it enables laboratories to
        bypass Common Working File payment safeguards.

        The payment decisions made by CMS’s Common Working File system may have been
        affected by the quality of CLIA survey and certification information the CWF system
        received from CLIA. Based on our analysis, payments to 1,154 laboratories (496 waived
        and 659 PPM) may have been affected by survey policy and procedures in effect during
        1999. Our analysis found that 50 laboratories holding a CLIA Certificate of Registration
        had billed Medicare during 1999 but were never certified to perform moderate or high
        complexity tests; yet, they billed Medicare for these tests.

        These 50 laboratories had submitted a CLIA application to CMS indicating that they
        would be doing moderate or high complexity laboratory tests. Based on information
        provided on their application, CMS gave these laboratories a CLIA Certificate of
        Registration and a CLIA number. The CLIA registration certificate enabled these
        laboratories to operate for up to 24 months without verification of the information
        provided on the application. Information about these laboratories was then provided to
        CMS’s CWF system. The CWF system then used that information in its payment
        decisions.

        These 50 laboratories submitted their claims for payment during a time when CMS policy
        allowed them to operate without a survey for up to 24 months. They had not paid all of
        their CLIA certification fees. Laboratory surveyors had not made any visits to the
        laboratory to ensure compliance with CLIA regulatory requirements. These laboratories
        were given access to the Medicare payment system that enabled them to bypass many
        CWF edits.

        Of the 50 laboratories paid while holding a Certificate of Registration, 45 had not billed
        Medicare extensively for moderate or high complexity tests. Medicare paid most of these
        laboratories less than $1,000 and several laboratories were paid $10,000 or more. One
        laboratory was paid nearly $200,000. The CWF processed these claims correctly under


CWF Laboratory Edits                             6                                   OEI-05-00-00050
        the policy that existed at the time provider submitted the claims. We have no reason to
        suspect wrong doing by any of these laboratories. However, we are concerned about the
        potential for an unscrupulous provider to gain unchecked access to the Medicare and
        Medicaid payment systems. Some State laboratory surveyors have told us that they have
        issued CLIA numbers to laboratories that apparently did not exist. These laboratories
        used the 24 months they were permitted to operate under a CLIA Certificate of
        Registration to obtain Medicare and Medicaid payments.

        We do not mean to infer that all laboratories that downgrade their applications to a
        Certificate of Waiver or a Certificate for Provider Performed Microscopy Procedures are
        unscrupulous. Many reasons, including the cost of CLIA certification, inability to meet
        CLIA standards, competition in the marketplace and other factors, could explain why
        laboratories do not follow through and obtain a CLIA Certificate of Compliance or a
        Certificate of Accreditation.

        The CMS is aware of this vulnerability and is considering procedural changes to reduce
        Medicare’s exposure to unscrupulous providers who would seek to defraud Medicare and
        Medicaid. Requiring payment of all CLIA certification and survey fees ensures more
        timely onsite visits to laboratories. Earlier onsite visits will help to ensure that the quality
        of testing done at a laboratory meets CLIA standards before Medicare and Medicaid make
        any substantial payments for substandard or poor laboratory testing. It will also make it
        more difficult for nonexistent providers to defraud Medicare and Medicaid.

        Policy 2: Prohibits the downgrading of a CLIA certificate until the current
        certificate has expired

        Untimely changes to a laboratory’s CLIA certificate information create a vulnerability that
        may affect Common Working File payment safeguards. More than 13,600 (out of 18,200
        plus) laboratory services in our sample got through the Common Working File edits
        because they were billed by providers whose CLIA Certificate of Compliance or
        Certificate of Accreditation was still shown as valid in CMS systems. Our sample
        contained 1,104 providers who changed their laboratory certification from moderate and
        high complexity testing to provider performed microscopy or waived testing at some point
        during 1999.

        During the time period these 1,104 laboratories submitted their claims for payment, CMS
        did not update information about downward changes in a laboratory’s CLIA certification
        until the laboratory’s higher level CLIA certification had expired. For example, a
        laboratory issued a Certificate of Compliance effective January 1, 1998 could continue to
        bill for moderate and high complexity testing until January 2000 even if they had notified
        CMS that effective January 2, 1998 they would only be doing waived tests.

        We did not contact the State surveyors to determine exactly when they were notified that
        the laboratory would no longer be doing moderate or high complexity tests. Some of
        these laboratories may have elected to change their certification when their certificates
        came up for renewal. Others may have had trouble meeting CLIA certification
        requirements during their re-certification visit. Some may have sent notice to CMS that


CWF Laboratory Edits                               7                                      OEI-05-00-00050
        they had ceased conducting moderate and high complexity testing before their CLIA
        certificate expired. Finally changes in a laboratory’s certification may not become
        apparent until a laboratory surveyor discovers that moderate and high complexity testing
        had ceased at some earlier point in time and the laboratory failed to notify CMS of the
        change.

        The CMS is considering a new procedure that will result in the Common Working File
        having more accurate and timely information about a laboratory’s CLIA certification.
        This change in procedure could help prevent payment of moderate and high complexity
        services billed by laboratory providers whose CLIA certificates are changed to either a
        Certificate of Waiver or a Certificate for Provider Performed Microscopy Procedures.
        Based on our sample, this change could affect the processing of an estimated 275,000
        laboratory services.




CWF Laboratory Edits                            8                                    OEI-05-00-00050
                       RECOMMENDATIONS


        It appears that the CMS’s Common Working File has been effective in ensuring that
        providers holding CLIA Certificates of Waiver and Certificates for Provider Performed
        Microscopy Procedures are paid only for tests authorized under their CLIA certificate.

        We believe that the CMS survey and certification policies and procedures discussed in this
        report create vulnerabilities in Medicare claims processing. Therefore, we encourage
        CMS to examine and revise its operating procedures to:

        <	       Shorten the length of time allowed between application and onsite survey of new
                 laboratories.

        <	       Prohibit laboratories from billing Medicare until they have paid all of their CLIA
                 fees or been surveyed to ensure compliance with CLIA regulations.

        <	       Downgrade CLIA certificates and transmit the information to the CWF as soon as
                 it becomes known that a laboratory will no longer do moderate or high complexity
                 testing.

        The first of these three recommendations was also made the the OIG in an earlier report
        entitled, “Enrollment and Certification Processes in the Clinical Laboratory Improvement
        Amendments Program.”


AGENCY COMMENTS

        We received comments on this report from CMS. They concur with our all of our
        recommendations and have made changes to their procedures that will help meliorate the
        common working file edit system by addressing the vulnerabilities identified in this report.
        Their comments can be found in Appendix A.




CWF Laboratory Edits                               9                                    OEI-05-00-00050
                                                      APPENDIX A


                       CMS Comments on this Report





CWF Laboratory Edits                10                    OEI-05-00-00050
CWF Laboratory Edits   11   OEI-05-00-00050
